HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation Blue Cross and Blue Shield of Nebraska, (A-07-95-01159)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Blue Cross and
Blue Shield of Nebraska," (A-07-95-01159)
January 29, 1996
Complete Text of Report is available in PDF format
(199 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of our review of Medicare Contractor's
Pension Segmentation, Blue Cross and Blue Shield of Nebraska (Nebraska). Our
review showed that Nebraska understated medicare segment pension assets as of
1986 by $59,406. The understatement occurred because Nebraska incorrectly identified
Medicare segment costs centers in determining Medicare's initial assets. However,
Nebraska's update of the medicare segment assets from Plan Year 1986 to Plan
Year 1994 overstated segment assets by $21,857. The overstatement primarily
occurred because Nebraska used incorrect participant data and benefit payment
data. We recommended that Nebraska increase the January 1, 1994 assets of the
Medicare segment by $37,549 ($59,406 less $21,857). Nebraska accepted our recommendations.